No. 21-351
IN THE

Supreme Court of the United States
COURTNEY WILD,
Petitioner,
v.
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA,
Respondent.

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief of Senator Dianne Feinstein and Former Senators Jon Kyl and Orrin
Hatch as Amici Curiae in Support of Petitioner contains 4,648 words and complies with
the word limitation established by Rule 33.1(g)(x) of the Rules of this Court.
Dated: October 4, 2021

Bradley G. Hubbard

